HHS/OIG, Audit -"Audit of Duplicate Capitation Payments Under Medicare and Medicaid Managed Care Programs in Florida,"(A-04-99-01198)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Duplicate Capitation Payments Under Medicare and Medicaid Managed Care Programs in Florida," (A-04-99-01198)
November 26, 2002
Complete
Text of Report is available in PDF format (2.09 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if managed care organizations (MCO) in Florida received capitation payments
under the Medicare and Medicaid programs for the same services provided to the same beneficiaries during concurrent enrollment
periods.  We found that there were dually eligible beneficiaries concurrently enrolled in both Medicare and Medicaid
MCOs.  Our audit indicated there is a need for CMS to work with the Florida Medicaid agency to ensure that both duplicate
capitation payments as well as duplicate fee-for-service payments will not occur.  CMS generally concurred with our
finding and recommendation.